<html>
<title> - 67-683 2000 . IMPACT OF BANNING SNOWMOBILES INSIDE NATIONAL PARKS ON SMALL BUSINESS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
67-683

2000


 
 IMPACT OF BANNING SNOWMOBILES INSIDE NATIONAL PARKS ON SMALL BUSINESS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON TAX, FINANCE, AND EXPORTS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             JULY 13, 2000

                               __________

                           Serial No. 106-68

                               __________

         Printed for the use of the Committee on Small Business

                      COMMITTEE ON SMALL BUSINESS

                  JAMES M. TALENT, Missouri, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
DONALD A. MANZULLO, Illinois             California
ROSCOE G. BARTLETT, Maryland         DANNY K. DAVIS, Illinois
FRANK A. LoBIONDO, New Jersey        CAROLYN McCARTHY, New York
SUE W. KELLY, New York               BILL PASCRELL, New Jersey
STEVEN J. CHABOT, Ohio               RUBEN HINOJOSA, Texas
PHIL ENGLISH, Pennsylvania           DONNA MC CHRISTENSEN, Virgin 
DAVID M. McINTOSH, Indiana               Islands
RICK HILL, Montana                   ROBERT A. BRADY, Pennsylvania
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
MICHAEL P. FORBES, New York          DENNIS MOORE, Kansas
JOHN E. SWEENEY, New York            STEPHANIE TUBBS JONES, Ohio
PATRICK J. TOOMEY, Pennsylvania      CHARLES A. GONZALEZ, Texas
JIM DeMINT, South Carolina           DAVID D. PHELPS, Illinois
EDWARD PEASE, Indiana                GRACE F. NAPOLITANO, California
JOHN THUNE, South Dakota             BRIAN BAIRD, Washington
MARY BONO, California                MARK UDALL, Colorado
                                     SHELLEY BERKLEY, Nevada
                     Harry Katrichis, Chief Counsel
                  Michael Day, Minority Staff Director
                                 ------                                

               Subcommittee on Tax, Finance, and Exports

                 DONALD A. MANZULLO, Illinois, Chairman
STEVEN J. CHABOT, Ohio               CAROLYN McCARTHY, New York
PHIL ENGLISH, Pennsylvania           RUBEN HINOJOSA, Texas
PATRICK J. TOOMEY, Pennsylvania      CHARLES A. GONZALEZ, Texas
                                     GRACE F. NAPOLITANO, California
           Philip Eskeland, Senior Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2000....................................     1

                               WITNESSES

Stupak, Bart, a Representative in Congress from the State of 
  Michigan.......................................................     2
Peterson, Collin, a Representative in Congress from the State of 
  Minnesota......................................................     4
Thomas, Craig, a Senator in Congress from the State of Wyoming...    10
Collins, Kevin, Legislative Representative, National Parks 
  Conservation Association.......................................    13
Abbott, James, President, University of South Dakota.............    15
Seely, Clyde, Owner, Three Bear Lodge and West Yellowstone 
  Conference Hotel...............................................    17
Stein, Bob, Owner, Alger Falls Motel.............................    18
Lyon, John, Owner, J&J Sport.....................................    20

                                APPENDIX

Opening statements:
    Manzullo, Hon. Donald A......................................    32
    McCarthy, Carolyn............................................    33
Prepared statements:
    Stupak, Bart.................................................    34
    Thomas, Craig................................................    36
    Collins, Kevin...............................................    38
    Abbott, James................................................    46
    Seely, Clyde.................................................    50
    Stein, Bob...................................................    68
    Lyon, John...................................................    70
    Gerou, Stan..................................................    76
Additional material:
    International Snowmobile Manufacturers Association...........    78
    Department of Interior Press Release.........................    82
    Blue Ribbon Coalition, Inc...................................   102
    Letters to Manzullo..........................................   113
    Letters to Thomas............................................   158

 
   THE IMPACT OF BANNING SNOWMOBILES INSIDE NATIONAL PARKS ON SMALL 
                                BUSINESS

                              ----------                              


                        THURSDAY, JULY 13, 2000

                  House of Representatives,
          Subcommittee on Tax, Finance and Exports,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2360, Rayburn House Office Building, Hon. Donald A. 
Manzullo [chairman of the Subcommittee] presiding.
    Chairman Manzullo. We are going to start our Subcommittee 
hearing.
    Congressman Stupak is here. Bart, if you want to go up here 
to the witness table, we are going to start with you. And then 
as Senator Craig Thomas may be coming in now, or he will 
probably come with the second panel, at which time we will 
interrupt the testimony of the second panel to accommodate the 
time of the Senator.
    Why is this Subcommittee, and this member in particular, 
who represents a medium Rust Belt city in the flat Midwest, 
concerned on this hot July day about snowmobiling in our 
national parks? The reason is quite simple: there are more than 
4 million snowmobilers in North America, including 58,000 in 
Illinois. Plus, snowmobiling contributes over $9.2 billion a 
year to the U.S. and Canadian economies and provides 65,000 
jobs, mostly in small businesses.
    Many of my constituents are avid snowmobilers who travel 
great distances to tour our national parks. Ninety-five percent 
of snowmobilers consider it family recreation. They spend an 
average of $120 per day. The Department of Interior did not 
take into account, as required by law, the impact of the 
proposed snowmobile ban, upon small businesses, when it made 
its grandiose press announcement last April in defiance of 
SBREFA, which we worked very hard to pass, and which has been 
totally ignored by this Federal agency. This proposal will hurt 
a variety of small businesses in the rural towns adjacent to 
national parks. In addition, the snowmobile ban inside national 
parks has the potential of hurting small businesses like dozens 
of snowmobile dealers in northern Illinois, Seward Screw 
Products in Seward, Illinois, which makes pistons that go into 
snowmobile brake systems, and Bergstrom Skegs of Rockford, 
which manufactures after-market traction and control products 
for snowmobiles.
    The purpose of the hearing is to put real, live faces on 
the small businesses that would be negatively impacted by such 
a snowmobile ban. Until the Department of Interior recognizes 
and deals with these negative impacts, at the very minimum this 
ban should be put on an indefinite hold.
    I now yield for an opening statement from my good friend 
from New York, which has a tremendous number of snowmobiles and 
is also the home to my good friend the ranking minority member, 
Mrs. McCarthy
    Mrs. McCarthy. Thank you, Mr. Chairman. I used to go to 
Vermont almost every single weekend and a lot of times when I 
was not skiing, I was snowmobiling also.
    Thank you for scheduling this hearing to discuss the 
economic impact the national parks ban on snowmobiles will have 
on local businesses. I would like to thank Congressman Stupak 
as well as our second panel of witnesses for taking time out of 
their busy schedule to be here with us this morning. The recent 
decision by the National Park Services to ban snowmobiles from 
national parks raises some interesting questions.
    From an environmental perspective, I believe it is 
difficult to contest some of the arguments made concerning the 
pollution from snowmobiles. It is my understanding that up to 
one-third of the fuel delivered to snowmobile engines goes 
straight through and out the tailpipe without being burned. 
Furthermore, lubricating oil is mixed directly into the fuel 
and is expelled as part of the exhaust. Obviously, this is a 
concern.
    However, I am also concerned that the interests of small 
businesses surrounding national parks were neglected when a 
decision was reached to ban snowmobiles from the parks. 
Moreover, I am concerned that the decision to completely ban 
snowmobiles from national parks is a response of lax 
enforcement of current laws dealing with snowmobile use. 
Environmental protection is a concern for many of us; however, 
I believe the interests of all affected parties need to be 
taken into consideration as well.
    Therefore, I look forward to the testimony from our 
witnesses, and I thank you, Mr. Chairman.
    Chairman Manzullo. Thank you, Congresswoman McCarthy. Mr. 
Stupak, we are going to enforce the 5-minute rule because we 
want to get through here as far as we can before the tyranny of 
the bells takes place with multiple votes. It is a privilege to 
have you here. The Congressman and I were elected together in 
1992. He represents the northern part of the great State of 
Michigan, including the Upper Peninsula. Congressman Stupak.

STATEMENT OF THE HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, and Congresswoman 
McCarthy. Good to see you again.
    Let me just summarize my statement. I am actually in a 
markup. I am going to have to run down there.
    But let me--the U.S. Department of the Interior in a quote 
from Assistant Secretary Barry when they made the announcement 
said, ``The time has come for the National Park Service to pull 
in its welcome mat for recreational snowmobiling. Snowmobiles 
are noisy, antiquated machines that are no longer welcome in 
our national parks. The snowmobile industry has had many years 
to clean up their act and they haven't.'' .
    That statement there, the arrogant attitude that they have, 
because I don't think they ever have been on a snowmobile--they 
obviously know nothing about the industry. They obviously did 
not consult anyone in the industry. They obviously have never 
been to northern Michigan. They obviously--really, really I 
don't know about you, Mr. Chairman, but really got me going on 
this issue because they really have not looked at all at what 
the industry has done for many years and if they even knew 
their own regulations.
    At Pictured Rocks National Lakeshore, which is one of four 
parks in my district, we have restrictions on where snowmobiles 
can go. In my district, this park, or ban if you will, would 
ban snowmobiling on 10 miles, 10 miles, 10 of the most critical 
miles, because it is probably the most beautiful scenery in our 
district. There are other parts of that national park where 
snowmobiles do not go, like on the dunes that are on Lake 
Superior. We do not go on them because snowmobilers are good, 
conscientious people. They do not want to do anything to harm 
the environment. They do not want to do anything to degrade a 
national park.
    So when the ban came out a number of years ago, based on an 
executive order in 1972 and 1977, snowmobilers, the local park 
people, got together and they said there are certain areas we 
should stay off. We do not want to pollute. We do not want to 
degrade the environment. We do not want to harm critical, 
sensitive environmental areas. So the local parks like Pictured 
Rocks got together and put forth where they would move their 
snowmobiles back and forth and they developed trails. And it 
has been a great recreational enjoyment for people in my 
district, people from your district or New York, wherever, who 
come to my district and snowmobile, and it has been a great 
activity for everyone.
    It has been a huge economic impact for my district. I am 
pleased that you have invited two of my constituents, Mr. Gerou 
and Mr. Stein, who will testify later. Mr. Gerou could not be 
here at the last minute, something came up. But he actually, 
Stan Gerou actually owns two motels and a snowmobile trail 
grooming business in Munising and he has a contract with 
Pictured Rocks to groom the 10 miles of trail. To lose that 
contract I am sure would be devastating economically to him.
    [Mr. Gerou's statement may be found in appendix.]
    But even Grant Peterson, the local superintendent of the 
park, when we have talked to him, he said I have never, never 
in all the time I have been here ever had any problem with 
snowmobilers. They do not go out there and rip up the place. 
They have been very good about staying on the 10 miles that we 
restrict them to. They are not on the dunes. He has never seen 
any economic or environmental damage done in the Pictured Rocks 
National Park and he was beside himself when they made this 
announcement.
    And the announcement just basically said we are going to 
pull the welcome mat. They did not explain to the American 
people that there are certain parks like Pictured Rocks that 
have special regulation. You just cannot make an announcement 
and overrule the rules and regulations in these 27 special 
parks. Again, it shows the arrogant attitude of the National 
Park Service for some Assistant Secretary to just say we are 
going to ban this without really knowing and following the rule 
of law. If you want snowmobilers to follow the rule of law, I 
think we should start with the Park Service and Mr. Barry, and 
he should follow the rule of law. So the national parks must 
first issue a new rule to overturn the special regulations and 
just cannot simply make an announcement and expect it to carry 
the weight of law.
    There is a process to follow here and they haven't followed 
it. They have not even published a proposed rule or regulation 
in the Federal Register. They have not taken comments. So 
anything this Committee can do to block this ill-conceived 
attitude of the Park Service we certainly would appreciate it.
    I do not blame the local folks. They have worked well with 
us this northern Michigan. But you just give some of these 
folks out here who, because of pressure from some environmental 
groups who have never been probably to northern Michigan and 
have never been on a snowmobile, to start saying that they are 
environmentally destroying the area and they are antiquated 
machines and they are pollution, they just really do not 
understand the situation.
    So I appreciate you holding this hearing. I see my time is 
up and thank you again.
    [Mr. Stupak's statement may be found in appendix.]
    Chairman Manzullo. Thank you, Congressman Stupak, for that 
very compelling firsthand testimony.
    Our second guest on our first panel, Congressman Collin 
Peterson, from the State of Minnesota. We have worked together 
on a lot of ag issues, especially dairy, where we have learned 
that milk is thicker than blood.
    Mr. Peterson. Hope we have a better result on this.
    Chairman Manzullo. Yes. Congressman Peterson, we are trying 
to impose the 5-minute rule, please.

  STATEMENT OF THE HON. COLLIN PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I really want to 
thank you for your leadership and recognizing the aspect of 
this that sometimes gets forgotten and holding this hearing on 
the National Park Service's ban on snowmobiles and the impact 
on small businesses. I appreciate the chance to be here and 
associate myself with what I heard of my colleague's remarks 
here from Michigan.
    I represent the Seventh District of Minnesota, which is the 
home of Arctic Cat and Polaris Snowmobiles, but in addition to 
that I was one of the few Members of Congress who were a 
professional snowmobile race driver back in my younger years 
before I came to my senses. It is a great start. And for those 
of us that are up in the cold country in the wintertime there 
is not a whole lot to do. We can go ice fishing, but that gets 
boring after a while, and snowmobile riding is one of the great 
pastimes that we have and we take offense when people monkey 
with it.
    To say that this industry has an important economic impact 
on local communities and small businesses in my district would 
be a dramatic understatement. In Minnesota alone the snowmobile 
industry is estimated to generate over a billion dollars of 
economic impact. Much of this activity is through small 
businesses in my district that supply manufacturer parts and 
service and the nearly 200 small business dealers that sell and 
service the machines manufactured in my district.
    Small businesses such as Automan Engineering, Product 
Research and Design, Detroit Lakes Manufacturing, Straight 
River Manufacturing, and dozens more small machine and welding 
shops throughout the Seventh District do business with Arctic 
Cat and Polaris. In turn, these small businesses are able to 
maintain jobs and generate economic activity within the local 
communities in my district.
    When I first was elected we had a big shortage of jobs in 
my district. Now, in a lot of these small communities, the 
problem is we can't find enough people to fill out those jobs 
and one of the reasons is the tremendous activity within the 
snowmobile manufacturing area.
    The snowmobile industry also means jobs for rural 
communities and small businesses because it directly employs 
about 10,000 people throughout the Snow Belt. Over half these 
employees are in Minnesota and most of them in my district. And 
indirectly job creation is estimated apparently at tens of 
thousands nationwide. Snowmobile use generates positive 
economic activity, as I said, through machine sales and 
service, but also tourism. Nationwide, snowmobilers spend over 
$9 billion in direct expenditures for the sport.
    In the Seventh District of Minnesota and many other 
communities across the Snow Belt this direct support is for 
small businesses. Cafes, motels, resorts, fuel stations and 
other local businesses receive the benefit of increased 
economic activity in the wintertime because of this sport.
    Often, this additional revenue comes during a time of the 
year when the other businesses have been reduced because of 
obviously the weather situation. Whether directly through the 
manufacturers or indirectly through tourism, the snowmobile 
industry is a critical cog in the economic wheel of the Seventh 
District of Minnesota and other areas throughout the Snow Belt.
    Although rural communities too often are left behind in the 
recent national economic prosperity and small businesses have 
struggled to maintain their viability, I am pleased to report 
that the snowmobile industry has been a bright spot for the 
Seventh District and other areas in the Nation because they 
have provided a reliable source of economic activity for 
several of those communities that I mentioned, and as I said, 
the unemployment rates remain very low throughout my district 
partly because of this industry.
    In closing, Mr. Chairman, any activity affecting the health 
and well-being of snowmobile demand and use affects my rural 
communities and small businesses. The proposed snowmobile ban 
by the U.S. Park Service is such an action. The Park Service 
decision to ban snowmobiles from our national parks in my 
opinion was totally arbitrary and without any factual basis. A 
complete and scientific review of the environmental impact was 
not completed before the proposed action, and I think that this 
reckless proposal failed to consider the impact that such a ban 
would have on the workers and small businesses throughout the 
United States.
    You know, whatever they are trying to accomplish here, if 
they really think that this congestion and pollution is a 
problem, I would suggest that cars are a much bigger problem 
than snowmobiles, and if this is what they want to do, what 
they ought to really be looking at is banning cars in 
Yellowstone Park, because that is doing a lot more damage to 
Yellowstone Park and these other areas than snowmobiles are.
    So implementing an arbitrary ban on snowmobile use within 
our national park would have a devastating impact on small 
businesses in north and western Minnesota and the Snow Belt. I 
think the other thing that worries us is that this is just the 
tip of the iceberg and that the next thing that you are going 
to see is that they are going to want to ban snowmobiles in all 
of the Federal land, Forest Service land, BLM land, and the 
next time is going to be ATVs, all-terrain vehicles. They are 
going to want to try to ban those from those areas. This is bad 
enough, but I am very, very concerned about the precedent this 
would set and the kind of things that would come in the future 
which would have even a bigger negative economic impact.
    So thanks for your leadership. We look forward to working 
with you.
    Chairman Manzullo. I appreciate that. I have just a couple 
of questions to both Members of Congress. Did anybody from the 
Department of Interior contact you in advance of this ruling 
coming out?
    Mr. Peterson. Not me.
    Mr. Stupak. No, Mr. Chairman. In fact, we have an internal 
document that we were able to obtain from the National Park 
Service and what they did, basically they had their own little 
group that got together and decided to put forth this ban and 
they talk about the meetings they had and who was there. No one 
was from the snowmobile industry, no Members of Congress.
    Chairman Manzullo. Could you state who was there? Is it a 
lot of people who were there?
    Mr. Stupak. Representatives from the parks. They did not 
list every one of them. I will be happy to share this memo with 
you.
    Chairman Manzullo. Any outside groups besides the parks?
    Mr. Stupak. The Blue Water Network Petition, which is an 
environmental group associated with 60 other environmental 
organizations.
    Chairman Manzullo. The environmental organizations were 
invited to come, but the people actually impacted were not 
invited to come to this meeting?
    Mr. Stupak. The way I read it, the recommendations and 
results of the 2-day service workshop on snowmobile policy for 
the National Park Service were held; 55 people from the 
Department and National Park Service, including representatives 
of 33 of the 42 national parks in which snowmobile use occurs, 
and some other groups in here. They mostly talked about 
Yellowstone and Grand Teton National Parks. It appears from 
this memo that is where the emphasis came from and some 
videotapes on wildlife that they had in these two parks, and 
from that the conclusion was that we should ban snowmobile use.
    Chairman Manzullo. I would like to have that document, plus 
your testimony, be made a part of the record. Perhaps we should 
have a second hearing before the Subcommittee and bring in the 
National Park Service and the people who feel that they can 
make regulations without talking to the people which are 
impacted by them.
    Mrs. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman. And thank you, 
again, for the testimony. Bart, you and I talked about this a 
little bit last night, and you actually had some what you felt 
would be solutions or at least how we could work through this. 
I was wondering if you could share that with us.
    Mr. Stupak. Sure. The snowmobile organizations, throughout 
the United States and especially in northern Michigan, if there 
is a problem, like say at Pictured Rocks, with snowmobiling, 
let's work with them, work the solution out. Let's allow the 
local supervisors and park personnel to work on any regulations 
or needs that they have to work out.
    As I said, in Pictured Rocks it is a huge park in my 
district. There is only 10 miles that snowmobilers, that the 
Park Service agreed they could use. To now pull the rug on 
those 10 miles, or the welcome mat if you will, just does not 
make any sense. So instead of having snowmobilers going where 
they are welcome in the national park, so what are you going to 
do? Say no snowmobiles are there? How are you going to enforce 
it? You will not find the snowmobilers going only on the 10 
miles; they will go everywhere, even over the critical and 
sensitive areas.
    So number one, let the snowmobilers and the people work it 
out. Number two, those parks that actually have these rules and 
regulations, let's review them. Number three, if there is 
environmental damage, put forth the evidence and let's discuss 
it with the snowmobile groups. Number four, let's look at the 
economic impact to our communities and our areas before you 
start making these bans.
    That is really part of the purpose and mission of the 
national parks. Not only do they have to protect the parks and 
the national forests and all of that, but they have to have use 
and access. And when you are up in Munising, you get 2 to 300 
inches of snow a year; the only way you are going to have 
access is basically through snowmobiles. And if it is 
restricted to 10 miles, it has worked out well for us. As I 
said, Grant Peterson, the local supervisor, had never had 
troubles with snowmobilers, no environmental ecological damage 
to our park. And for someone in Washington to get together 
because there is a concern about Yellowstone and the Grand 
Tetons to withdraw the whole system is just ludicrous.
    Mr. Peterson. Could I--Arctic Cat has been--is working on 
new technology, I think all manufacturers are going to four-
stroke engines. That is happening in the outboard engine area 
as well. And they, last year, took a big portion of their four-
strokes and moved them into Yellowstone in their concession 
there. So they have been moving as fast--actually faster than 
the agreement was to try to get ahead of this pollution 
problem.
    So I think the industry is trying to work on this, but my 
own view of what is going on is that this has nothing to do 
with pollution. These people do not want motorized activity in 
these parks. That is what this is about. Except their cars to 
get there, you know. But they do not want ATVs. They do not 
want snowmobiles. They want--this is a whole different 
attitude. They want this wilderness experience. We have been 
fighting this in the Voyageurs National Park and BWCA in 
Minnesota for years where they are trying to ban motor vehicles 
and snowmobiles and float planes and everything else.
    So that is really at bottom of what is going on with this 
Blue Water outfit, whatever their name is. They are a bunch of 
environmental groups and they are really--they are concerned 
about pollution, but the bottom thing that they are really 
after is getting motorized traffic all out of these parks. And 
eventually it is going to be BLM land, Forest Service land, and 
the whole works because that is what they want.
    Mrs. McCarthy. Following up with that, and I want to go 
back to the papers that you had, Bart, as far as--and something 
that you said, Congressman Peterson, as far as there was no 
scientific proof, no--the impact study hadn't been done before 
all of these regulations came down?
    Mr. Peterson. Well, as I understand what happened in 
Yellowstone, one of the interesting things is that Yellowstone 
was exempted from this regulation, as I understand it. So this 
does not apply to Yellowstone, which is where the----
    Chairman Manzullo. But as part of the overall scheme to 
include it.
    Mr. Peterson. Yes, apparently there is a lawsuit going on 
or some kind of a deal, whatever it was. Where a lot of this 
started when these snowmobiles start up in the parking lot at 
Yellowstone, there are 7 or 800 of them and they are idling 
getting ready to go for the day and they went in and monitored 
and did the testing right there. They did not do it out on the 
trail.
    So you could--again, I think they were setting this thing 
up to get the conclusion that they wanted, because they had a 
different agenda that they were trying to accomplish. So the 
way we view this, there has not been any kind of a scientific 
look at this that is fair in our opinion. And what they are 
doing is they are using this 1972 executive order to use as the 
reason, for the basis for doing this. I don't know that anybody 
envisioned in 1972 that this was going to be what the outcome 
of that executive order was.
    Mrs. McCarthy. I would just like to follow up with one 
thing. For many years during the summer, my husband and I used 
to go fishing. Now, with that obviously we had to go out onto 
the beach. We got our permits, we went through all the testing. 
And for many years it was just a number of us that fished. We 
would be on the shores of the beaches and it was absolutely 
wonderful.
    And then, of course, as word leaked out that more people 
could go on the beach, then we saw these younger people, 
unfortunately, start doing damage to the dunes. That is when we 
had the Long Island Beach Buggy Association. A number of us 
that were concerned about this started regulating just those 
that came onto the beach ourselves because we did not want them 
to ruin it for us. And I think that is something that 
unfortunately happens all the time. And as Bart had said, my 
concern would be if we closed down these trails, and you 
think--certainly I am concerned about the small businesses that 
are in the area, you are going to have your snowmobilers go out 
there and they are going to find their ways because, you know, 
they go out at night. We certainly did. But we did follow 
trails mainly for safety issues.
    So hopefully we can work something out to make it conducive 
for everybody. Thank you.
    Chairman Manzullo. So you had a beach buggy?
    Mrs. McCarthy. Yes.
    Chairman Manzullo. And you used to race snowmobiles? Okay. 
I have just one question. Collin, do you have any national 
parks in your congressional district?
    Mr. Peterson. No, I do not.
    Chairman Manzullo. But in an adjoining congressional 
district?
    Mr. Peterson. Yes, it is close to me. Voyageurs National 
Park.
    Chairman Manzullo. Congressman Stupak, you have four?
    Mr. Stupak. I have four, Mr. Chairman. I have Sleeping Bear 
National Lakeshore down by Traverse City. Snowmobiles are not 
allowed there because it is basically dunes areas. We know 
that; we respect that. We have Pictured Rocks. We have Isle 
Royal. You couldn't get a snowmobile out there, because it is 
in the middle of Lake Superior, if you wanted to. And Keweenaw 
National Park, which has probably on average 350 inches of snow 
every year. That is all owned by private and the village of 
Calumet in the area and there is no real Federal landholding 
there, so they cannot restrict us there.
    Chairman Manzullo. Are there any state parks in your areas 
that restrict motorized vehicles?
    Mr. Peterson. I have a lot of state parks and you know 
while they are restricted to the extent that you have to go on 
trails and so forth, which is the way it should be, I do not 
have any where they have banned the use of motorized vehicles 
of any kind, other than to put them on trails.
    Mr. Stupak. I have lots of state parks, and again, in the 
critical dunes areas, which are in Pictured Rocks and Sleeping 
Bear, and other parts of Michigan on the Lake Michigan side, 
Lake Superior side and even on the Lake Huron side, they do ban 
the snowmobiles and we respect that. We are happy to do it. We 
work with the parks, be it the state, local, and Federal folks 
because we do not want to do anything which would harm the 
environment. So we do have some restrictions placed on them and 
everyone abides by those restrictions.
    Mr. Peterson. Plus the trail system, and I assume you have 
it in Michigan too. We have a tremendous trail system in 
Minnesota that when I was in the legislature I helped establish 
and fund the grooming. It not only makes a better situation in 
the park, it is a better deal for private landowners because it 
puts the people on a trail and they are not out running all 
over their fields, and it is a safety issue. They are not 
running into fences, running into the ditches. We have had a 
lot of people in Minnesota over the years killed because they 
have run into a barbed wire fence or something.
    So I mean the system we have got works. It makes a lot of 
sense. The problem is, as I say, you have people that just do 
not like these vehicles and have a different agenda.
    Chairman Manzullo. Are there any links between state parks 
and the national park systems where the trails come together?
    Mr. Stupak. Oh, yeah.
    Mr. Peterson. Sure, and between us and Canada I have been 
dealing with up in my Lake of the Woods area, where they closed 
down the border stations. The biggest issue has been how to get 
these snowmobilers back and forth in this remote area. We 
finally put in video phones and we have been having trouble 
making them work when it is 40 below. But we have got not only 
hooked up between private and public and state, we also have 
trail systems hooked up between us and Canada.
    Mr. Stupak. The trails are all connected and run across the 
Upper Peninsula, Lower Peninsula, through towns, private land.
    Chairman Manzullo. So to ban the trails in the National 
Park System would interrupt the state trails.
    Mr. Stupak. Exactly.
    Chairman Manzullo. So it would be major links that would be 
eliminated in the whole system.
    Mr. Stupak. It very well could be. It depends on where the 
links are.
    Chairman Manzullo. Here is Senator Thomas. You have always 
been great at timing.
    Mr. Stupak. I will make sure that you get this memo, the 
one that I referred to.
    Chairman Manzullo. Senator Thomas, we are under the 5-
minute rule and you came just in time.

  STATEMENT OF THE HON. CRAIG THOMAS, A U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Well, our darned voting interrupts the 
thing. Thank you very much for the opportunity to be here. I am 
glad that your Committee is taking a look at this effort on the 
part of the Park Service to ban the use of snowmobiles in a 
number of parks, and I am pleased to have a chance to talk 
about that. I am chairman of the Park Subcommittee in the 
Senate, a native of Cody, Wyoming, right outside of Yellowstone 
Park, so parks have been part of my life forever.
    I am concerned about it because of the impact it can have, 
of course, on the gateway communities. I am concerned about it 
also because it is my belief that parks have at least two 
purposes. One is to preserve the resource, the other is to 
provide for a pleasant visit for the people who own the parks, 
and that is the taxpayers of this country.
    So what is really interesting to me and concerning me is 
the process more than anything. The unilateral decision on the 
part of the Park Service to ban snowmobiles is troubling for a 
number of reasons, I think. Basically there are two: One is 
that the park, by their own admission, has not managed the use 
of these machines. It has gone on in some cases as much as 20 
years without any management on the part of the Park Service. 
And the other, of course, is that some of the information they 
use in terms of science involved, this does not seem to be 
accurate. There have been no standards set by EPA or any of the 
other agencies which the manufacturers of snow machines 
indicate they would be willing to do if they knew where they 
had to go and before they invested their money.
    So, really, that is really the issue here. We have no real 
idea of what the impacts may or may not be or how they can be 
changed. There has been no attempt, particularly on the part of 
the parks--for instance, in Yellowstone there is an opportunity 
you could separate the machines from cross country skiers so 
that if they were conflicting you could do that. And you can 
manage those things, and that is what the park is supposed to 
do is manage this resource.
    So I think the alternative that they have chosen is simply 
to say that we are not going to do that any more. And, of 
course, in the instance that you are concerned about it does 
have a substantial impact on the economy of the surrounding 
gateway communities, plus of course the snow machine is a 
fairly large industry and in some States has a good deal of--I 
want to say, also, that in addition to the economics of it, I 
am very concerned about the access question.
    We have seen a lot of that in this administration, whether 
it be parks, whether it be roadless areas, whether it be 
Antiquities Act or the purchase of more Federal lands, there 
seems to be an effort, a movement by this administration to 
replace their present legacy with one of Theodore Roosevelt 
kind of thing and reduce access to public lands.
    I live in a state where half of the state belongs to the 
Federal Government, and, obviously, my first priority is to 
help maintain those resources but I am also committed to the 
notion that they can be used and maintained at the same time, 
and that is what they are for.
    So I would just hope that we would urge the Park Service to 
move forward in finding ways. Take some time. We have an 
amendment--I am not sure we will push it on the Interior bill--
which says here is some money, take some time and study this 
thing and see what impacts it has, not only on the surrounding 
communities, what impacts it really has on the resource--there 
is very much a question about that--and certainly take a look 
at how it can be managed so that it could continue to exist to 
give people access without damaging the resource.
    So, really, that is, Mr. Chairman, that is about the size 
of it. And as I say, I think I hear all the time, well, we have 
lots of other places you can use machines, and that is true, 
the forests and so on. But this is simply a movement into an 
area that I think is not the right thing for agencies to do, 
and that is just to make unilateral, knee-jerk decisions here 
in Washington rather than going through some of the 
alternatives that are available so that that could continue.
    So thank you very much for the chance to be here.
    [Sen. Thomas's statement may be found in appendix.]
    Mrs. McCarthy. Thank you, Senator. The testimony that we 
heard from our colleagues was interesting. Let me state that I 
am an environmentalist, but I will say also that I also know 
these groups work very hard because, let's face it, if we are 
going to take these trails and damage them, those that do 
snowmobiling will take away the beauty that actually is why 
they are in there.
    So I think it was mentioned earlier before you got here 
that we should have a full Committee hearing and delve into 
this, but apparently time is of the essence if this was a 
proclamation that was put down. Is this taking effect 
immediately?
    Chairman Manzullo. There will be proposed regulations 
coming out in September, but this Subcommittee is doing what 
the National Park Service should have been doing all along: 
getting input from the people who are impacted.
    Mrs. McCarthy. But we will have to take care of this before 
this next winter comes so it will not impact our small 
businesses. We will work it out one way or the other. I think 
there is certainly room for everyone to be accommodated and I 
think that is what we should be doing, especially on the 
Federal Government level. We have to take the interests of the 
local people, certainly people that want to go into the woods, 
which is absolutely beautiful, and, yes, working with the 
manufacturers because I think if they are willing to come up 
with machines that certainly are in better condition and have 
less emissions as far as air pollution we will try to work with 
them also.
    So I am looking forward--hopefully you will get some money 
into the Interior Appropriations that we can look into this and 
actually have evidence one way or the other on deciding this 
issue. I thank you, sir.
    Chairman Manzullo. Senator, did anybody from the National 
Park Service ever contact you or your office with regard to 
banning snowmobiling in the National Park Service?
    Senator Thomas. Not really. We have sort of a unique thing 
going on in Wyoming in which there has been over the last year 
and a half a winter use study going on in Teton and Yellowstone 
Parks, brought about partially because of some suits and so on, 
and it had to do with the movement of buffalo and, you know, 
whatever. And so that was part of it. And during the course of 
this, before that was completed and indeed before even all the 
statements that had been submitted had had a chance to be 
reviewed, and we worked hard to get a cooperative agency thing 
in here for local governments, before they even had a chance to 
do it, frankly, an Assistant Secretary at Interior announced 
that they would ban use of snow machines in parks.
    So the answer to your question is no.
    Chairman Manzullo. Congressman Thune.
    Mr. Thune. Mr. Chairman, I do not have any questions at 
this point. Thanks.
    Chairman Manzullo. Okay. Senator, we thank you for coming.
    Senator Thomas. It has been my pleasure.
    Chairman Manzullo. Let us know what we can do on this side. 
Do you have a further question?
    Mrs. McCarthy. No, no.
    Chairman Manzullo. Thank you very much.
    Senator Thomas. Thank you. Stay in touch, please.
    Chairman Manzullo. Let's have the second panel come up and 
we will get started there.
    Okay. We have our second panel here. Let me briefly 
introduce everybody. From my right to the left is Kevin 
Collins, Legislative Representative from the National Parks 
Conservation Association; then Dr. James Abbott, President of 
the University of South Dakota; Clyde Seely, owner of the Three 
Bear Lodge and West Yellowstone Conference Hotel, West 
Yellowstone, Montana; Bob Stein, owner of Alger Falls Motel in 
Munising, Michigan. Is that right?
    Mr. Stein. Munising.
    Chairman Manzullo. This is in Mr. Stupak's district. And 
John Lyon, owner of J&J Sport in Sycamore, just outside of my 
district, but in the Speaker's district.
    We will start first with Mr. Collins from the NPCA. Thank 
you for coming and we are adhering to the 5-minute rule, so if 
the gavel comes down you have 20 seconds to sum up.

    STATEMENT OF KEVIN COLLINS, LEGISLATIVE REPRESENTATIVE, 
    NATIONAL PARKS CONSERVATION ASSOCIATION, WASHINGTON, DC

    Mr. Collins. Thank you, Mr. Chairman. I am Kevin Collins, 
with the National Parks Conservation Association, and I request 
that in addition to my own written testimony, testimony from 
Peter Morton, who is a Ph.D. national resource economist with 
the Wilderness Society and also testimony from some folks from 
West Yellowstone, Montana, who could not be here today, be 
included in the record.
    Chairman Manzullo. We will include that.
    Mr. Collins. Thank you. As the only witness here today who 
represents the other side of the argument, I will try my best 
to summarize the main points that many of us believe are 
important on this issue.
    Today's hearing looks specifically at the impact of 
snowmobile restrictions on small businesses. We believe that it 
is the primary mission and concern of the National Park Service 
to protect and preserve national parks and we believe that that 
ought to be the primary concern of Congress as well. We do not 
dismiss the impact on small businesses or large businesses for 
that matter. But in our opinion, the first concern ought to be 
for the protection of the national parks.
    Let me say that I believe that the snowmobile manufacturers 
have consciously decided to exaggerate the economic impact that 
restrictions on snowmobiles in national parks will have. The 
International Snowmobile Manufacturers Association has an 
extensive Web site that lists their position and various facts. 
They say that West Yellowstone, Montana, quote, will close down 
if the park transitions to a snowcoach economy. I think that is 
a fairly outlandish claim and I think if you look at the 
letters from businesspeople in West Yellowstone, you will be 
inclined to agree.
    But they then go on to claim that, quote, the phenomenon 
will repeat itself 27 times across our Nation, creating 
wintertime ghost towns across America. I think that is an 
extraordinary exaggeration.
    Let me try to correct some of the misstatements that I 
think have been made today. The National Park Service has not 
taken a unilateral action to ban snowmobiles. As the chairman 
noted, there is a proposed rule that will be released by the 
Park Service. It is my understanding that that rule will look 
specifically at each of the 28 some national parks that 
currently have authorized use, and will deal with each of them 
and their specific circumstances individually.
    There are really only three or four national parks at which 
snowmobiling plays a significant part in the local economy, and 
there is really no place where snowmobiling inside the park is 
the only recreational snowmobiling opportunity.
    Congressman Stupak spoke eloquently about Pictured Rocks 
National Lakeshore and it is currently true that Pictured Rocks 
sees a fair amount of snowmobile use, 26,000 snowmobiles a 
year, but that pales in comparison to the almost 300,000 
snowmobiles that are used and registered in the state. And 
those people, according to the Association of Manufacturers, 
those people drive about 114 million miles on their snowmobiles 
just in the state. It is amazing.
    The state has 6,000 miles of snowmobile trails outside of 
the national parks and the situation really is the same all 
around the country. According to the American Council of 
Snowmobile Associations, there are about 130,000 miles of 
groomed snowmobile trails specifically for snowmobiles. There 
are an additional hundreds of thousands of acres of Forest 
Service lands, state lands that are open to snowmobiles and 
other uses.
    Of that, there are less than 700 miles of roads open to 
snowmobiles in national parks. I find it hard to believe that 
prohibiting snowmobiling on just 700 miles of road is going to 
create winter ghost towns around the country.
    I think it is important to note that the town of West 
Yellowstone, which has been cited and will be cited later 
today, as one that would be greatly impacted by any changes in 
regulation at the park, is clearly divided on the snowmobile 
issue. Many business owners believe that the removal of 
snowmobiles from the park will provide economic diversification 
and actual growth in the winter economy, and I have submitted 
some letters to the record that state that.
    Over 150 West Yellowstone businesspeople, elected officials 
and residents, which is actually nearly a third of the town's 
voting population, have signed a petition asking for a healthy 
park and a healthy economy, and I think that sums it up rather 
nicely. The message from the businesses and people of West 
Yellowstone is: Protect Yellowstone National Park and you 
protect our community and you protect our economy.
    I think it is worth looking at the broader picture of 
snowmobile use, particularly near West Yellowstone. Again if 
you do some searching on the Internet, you come up with some 
promotional materials for snowmobiling opportunities near West 
Yellowstone. It says, for the hard core snowmobile enthusiast 
there are more than 900 snowmobile trails that are available 
from the Yellowstone area. That does not include the national 
parks.
    I have a map which is difficult to see, but I will submit 
for the record, that shows in yellow and red all the Federal 
areas that are open to snowmobiles outside of the national 
park. Right here in the center where you see the lake is the 
national park. All of this is other public lands, Federal lands 
open to snowmobiles. This is West Yellowstone. There are plenty 
of recreational snowmobile opportunities outside the park.
    On the other hand, snowmobiling has become a big part of 
many people's livelihood, particularly near Yellowstone, and 
these people have built their businesses based at least in part 
on decisions that the Park Service has made. The Park Service 
has clearly for 20 years or so, specifically allowed 
snowmobiles and in many cases they have encouraged snowmobile 
use.
    Chairman Manzullo. Mr. Collins, we are at the end of 5 
minutes. I will give you 20 seconds to wrap up.
    Mr. Collins. I think it is fair and reasonable for this 
Committee, Congress, and the Park Service to work together to 
try to smooth the transition to a non-snowmobile winter economy 
for West Yellowstone. But I think the primary paramount concern 
needs to be the protection of the national parks. Thank you.
    [Mr. Collins' statement may be found in appendix.]
    Chairman Manzullo. Thank you for coming. Congressman Thune, 
could you introduce your constituent?
    Mr. Thune. Thank you, Mr. Chairman. And let me just say 
that I appreciate the opportunity to have this hearing to talk 
about this issue. This is an issue which is important to the 
people of South Dakota, as well as the people in a lot of areas 
across this country, of national parks. And I am pleased and 
honored to have with us a distinguished South Dakotan, the 
President of the University of South Dakota, someone with an 
extraordinary resume of both public and private service having 
been very successful in business as an attorney, former state 
legislator and currently president, as I said earlier, of the 
University of South Dakota. And I think he will probably speak 
to the impact that this proposed regulation would have on a 
number of jobs. There is a Polaris facility in Vermillion, 
which is home to the University of South Dakota. President 
Abbott is someone who can understand firsthand the impact that 
jobs and economic development have on a college town like that.
    So I am delighted to have him here today and to hear from 
him and look forward to what he has to say. Good to have you 
here, Jim.

  STATEMENT OF DR. JAMES ABBOTT, PRESIDENT, THE UNIVERSITY OF 
                  SOUTH DAKOTA, VERMILLION, SD

    Dr. Abbott. Thank you, Representative Thune. Mr. Chairman, 
thank you, other members of the Committee.
    I am pleased to be here today and honored to be here today 
to speak to you on behalf of the impact--of the economic impact 
of the proposed ban on snowmobiles in Federal parks. I do not 
consider myself an expert by any means on snowmobiling nor do I 
snowmobile. But I do think the impact is significant and could 
certainly be significant to South Dakota and to my hometown of 
Vermillion. ``Current hometown'' is a better description.
    I am president of the University of South Dakota, a small 
public university with an enrollment of approximately 6400 
students in Vermillion, South Dakota, a town of 12,000, 
including students.
    I will make my presentation as quickly and simply as 
possible. I specifically, in addition to my written comments, 
would simply like to emphasize two points. First of all, I 
think it would be difficult to overestimate the impact of 
snowmobiling in South Dakota and to tourism, which is, in fact, 
our second largest industry. Winter travelers in South Dakota 
spend an average of $281 a day as opposed to summer travelers, 
who spend approximately $144 a day. And among those surveyed by 
the Department of Tourism of the State of South Dakota, 
snowmobiling was overwhelming the number one activity 
respondents said that they participated in in South Dakota, or 
passed through South Dakota to participate in. 47.2 percent of 
those responding participated in snowmobiling as opposed to 9.4 
percent who visited, for instance, Mount Rushmore, which would 
be our major tourist attraction.
    I think it is also important to point out that in states 
like South Dakota with a very small population and a diverse 
geography it is important to maintain an economic base all 
through the year, and not just the summer.
    Our economy is heavily dependent upon agriculture and 
tourism, and certainly it needs to be a year round industry, 
not just a summer activity.
    I would also like to comment on the effect of snowmobiling 
in the Vermillion area and on the University of South Dakota 
because of the Polaris plant that is located in Vermillion, 
South Dakota. It is, if I am correct, the largest single plant 
in the State of South Dakota in one site. Vermillion simply is 
a one-economy town in most respects in that the university 
accounts for a huge number of the percentage of jobs. I think 
it is important to note that the effect of Polaris Sales, Inc., 
in Vermillion was the creation of 153 jobs and $32 million in 
annual earnings. That translates to an indirect economic effect 
of about 146 more jobs and another $20 million and 
approximately 3300 added jobs and $52 million in annual 
earnings in the state. So there really is a multiplier effect.
    On the University of South Dakota alone it makes a 
tremendous difference because we have at least 55 students who 
each year are able to find a paying job, much better paying 
than normal at the university.
    The other thing I think that is a very important thing to 
note about Polaris is that in our small town of Vermillion, 
Polaris itself is 10 percent of the commercial tax base of the 
city. An enormous number, not in terms of dollars but in terms 
of impact that it would have. And I am under no illusions that 
generally speaking when an activity is affected, it is the 
plant in the smaller areas and the less populated areas and 
those areas further from a major metropolitan areas which tend 
to be phased out.
    So it is important to our economy, it is important to the 
University of South Dakota and it is important to the State of 
South Dakota that snowmobiling be protected in some fashion. I 
thank you for the opportunity to be here today and appreciate 
the opportunity to speak with you.
    [Dr. Abbott's statement may be found in appendix.]
    Chairman Manzullo. Thank you, Dr. Abbott.
    Clyde Seely.

  STATEMENT OF CLYDE SEELY, OWNER, THREE BEAR LODGE AND WEST 
       YELLOWSTONE CONFERENCE HOTEL, WEST YELLOWSTONE, MT

    Mr. Seely. Mr. Chairman, my name is Clyde Seely. I am 
honored and pleased to come before you today. I bring to you 
over 30 years of firsthand experience regarding snowmobile 
rentals and related businesses in Yellowstone National Park and 
West Yellowstone, Montana, gateway community of about 1000 
people. I first came to Yellowstone in 1958 as a laundry boy 
and have since acquired and have listed my other affiliated 
businesses on the cover page.
    I would like to share with you my observations and my best 
assessment of what a snowmobile ban would do to us and our 
community. I would also like to share with you why I believe 
the all-snowcoach alternative will have negative impacts on the 
economy as well.
    I currently employ over 220 people, many with families. Our 
payroll is in excess of $2.5 million. We provide retirement 
plans as well as insurance plans for our employees. A ban on 
snowmobiles in Yellowstone will cause great economic harm, not 
only to ourselves but to our employees. Cuts will have to be 
made. The first cut would be employee insurance, then 
employees, then retirement plans, then more employees. Of 
course, the last dime would have to go to the bank to satisfy 
our loan requirements. I don't believe they would just forget 
about that.
    At Three Bear Lodge, 52 percent of our total annual revenue 
comes from the winter months. We believe that a ban on 
snowmobiles would cut our winter revenue by 60 to 70 percent. 
We currently operate 260 rental snowmobiles with the vast 
majority of people going into Yellowstone at least once during 
their stay. Yellowstone was the catalyst for bringing over 
60,000 people to West Yellowstone who entered the west gate in 
1998.
    Let me preface the next part by bringing to your attention 
that the ban on snowmobiles that we are talking about in 
Yellowstone today, is the extension of the National Park 
Service EIS. Their preferred Alternative G would replace 
snowmobiles with a snowcoach-only alternative. This plan is 
fraught with many problems, ill-thought out assumptions and in 
the end simply does not work.
    Chairman Manzullo. Clyde, let me interrupt you. Could you 
define a snowcoach?
    Mr. Seely. They have evolved over the past 20 or 30 years. 
They used to be a more antiquated machine than they are now. We 
currently use new vans, 15-passenger vans. We convert them by 
taking off the wheels, putting on a large track system on the 
back and ski on the front and they carry 10 people.
    Does that answer it? Okay. Thank you.
    If this alternative, along with a ban on snowmobiles, is 
implemented, the result will be financially catastrophic. We 
also operate a fleet of snowmobiles. We advertise with equal 
emphasis snowmobiles and snowcoach and find only about 5 
percent of the people choose to go on snowcoach, whereas 95 
percent prefer the snowmobile. I proved as the boy the old 
adage you can lead the horse to water, but you can't make him 
drink. We can offer Yellowstone snowcoach trips and hype it up 
as much as possible, but when it comes right down to it, the 
snowcoach will only satisfy a niche market and will fail 
dismally in satisfying the public's rights and wishes to access 
Yellowstone. If that fails, so will our economy.
    There are real economic concerns with the snowcoach plan. 
One, there is no feasibility study nor business plan that 
states that the all-snowcoach plan will work. Two, snowcoaches, 
as we know them, will cost between 65 and $80,000 per coach and 
will only carry about 10 people. Instead of becoming a cheaper 
mode of transportation, it becomes a more expensive way to see 
the park than by snowmobile.
    Number three, rental snowmobiles are bought new and sold 
after each season, thereby freeing up capital. The snowcoach 
will have to be a long-term investment with a low rate of 
return and sit idle during the summer months.
    Number four, indoor storage facilities are a must. Land for 
such facilities is extremely expensive if not impossible to 
obtain in our little town. The cost of building such facilities 
would be horrendous.
    I have read the testimony and listened to the testimony of 
Kevin Collins, and I strongly disagree with some of the slanted 
misinformation and misrepresentations. I and the State of 
Wyoming will be happy to follow up with a rebuttal of these 
misrepresentations and misleading comments. Please enter into 
the record the copy of the West Yellowstone Chamber of Commerce 
letter, a letter from our mayor, a fact sheet from our school, 
and a Montana snowmobile study. All bear out the huge financial 
impact a ban on snowmobiles would have.
    In closing, may I summarize by saying about 95 percent of 
the economy in West Yellowstone is tourism-related. The ban on 
snowmobiles in Yellowstone will bankrupt many in West 
Yellowstone that are based financially on a year-round economy. 
It will lower the quality of life for the employees, if not 
place some on the unemployment rolls. It will severely strain 
the school, town and services in West Yellowstone.
    I implore you to take the necessary action to keep 
snowmobiles a part of the economy of the West Yellowstone and 
Yellowstone area. I thank you for caring enough about us to 
invite us here today. I think we should rise above political 
agendas and do the things that are right, and it is not right 
to financially devastate a community.
    I would be happy to answer questions regarding whatever 
whenever.
    [Mr. Seely's statement may be found in appendix.]
    Chairman Manzullo. We appreciate you coming here from 
Montana. We will make, of course, your written testimony and 
the attachments thereto, including the statement from the Board 
of Trustees for Wolverine School District No. 69 in West 
Yellowstone, Montana.
    The next witness is Bob Stein.

 STATEMENT OF BOB STEIN, OWNER, ALGER FALLS MOTEL, MUNISING, MI

    Mr. Stein. Thank you, Mr. Chairman and members of the 
Committee. I am here today because of the Department of the 
Interior's ruling on the banning of snowmobilers in most units 
of the National Park System, specifically Miners Castle Road 
that is located in the Pictured Rocks National Lakeshore.
    Back in 1972, I came to the Upper Peninsula of Michigan 
from Chicago, Illinois. My wife and I came to go snowmobiling 
and see the Miners Castle, a sandstone rock formation that is 
in my opinion the most beautiful part of Pictured Rocks 
National Lakeshore. I was extremely impressed with the area and 
in 1975 decided to buy the Alger Falls Motel, a 17-unit motel 
located 9 miles south of Pictured Rocks National Lakeshore.
    At the time the motel only employed two persons, my wife 
and myself, and accounted for less than 10 percent of my total 
business.
    Since then, by aggressively promoting the area for 
snowmobiling, the Miners Castle area has become the flagship 
for all advertising in Alger County. The closing of the parks 
to snowmobiling is the worst threat to my business that I can 
imagine. The mere mention of these trail closures has prompted 
numerous concerned calls and letters from customers and 
residents alike.
    Snowmobiling has always been permitted in the area that is 
now known as the Pictured Rocks National Lakeshore. Slowly, one 
by one, the places that were once open to snowmobiles have been 
closed down. Snowmobiles are now only allowed in the Miners 
Castle area on roads that are open to all vehicles. Roads are 
not plowed in the winter and no damage is done, for there needs 
to be at least 8 inches of snow on the road before grooming can 
take place.
    Two years ago, we started grooming the Miners Castle Road, 
pleasing the tourists and the locals alike who can now 
experience the beauty of the castle during snow covered months, 
which in a climate such as ours can account for as much as 6 
months of the year. Few people could make the seven-mile walk 
up the road to see the beauty of this piece of scenery. The 
road is presently open to all users in the winter, motorized 
and nonmotorized. The closure would affect only snowmobiles.
    The only other way that this landmark can be seen is from 
Lake Superior, and due to the treacherous conditions of the ice 
this method is very hazardous. Although it would be impossible 
to predict because the area has always been open, I would 
expect a decline of at least 30 percent in my winter business 
from this. My motel now employs four persons. That would have 
to be dropped to two and a half persons. There would be a 
significant decrease in my season's occupancy and I am sure 
other businesses, be it hotels, restaurants, gift shops, would 
see the same effect. This would be devastating to the local 
economy that is dependent on the tourism this trail helps to 
attract.
    Again, I cannot emphasize too greatly that this threat is 
the biggest problem that I can imagine for my business. My 
daughter and her husband are now contemplating buying my motel 
after I have been in business for 25 years. If this trail is 
closed, it would not be possible for them to purchase the 
motel. They would have to leave the area. My family would break 
up.
    My business has experienced years where there was lack of 
snow and bad economy. These are factors we cannot control. As a 
community we suffered together and held on until the next year 
with hopes that the weather and the economy would be on our 
side. The closing of these parks is something we cannot control 
and are trying to keep open the parks to snowmobiles.
    In closing, I would hope that the Miners Castle trail and 
the Pictured Rocks National Lakeshore remains open to 
snowmobiling so those of us who live here in that area may 
continue to make a living and people may experience the beauty 
of the Pictured Rocks no matter what the season. Thank you for 
the opportunity to be here.
    [Mr. Stein's statement may be found in appendix.]
    Chairman Manzullo. Thank you, Bob. I appreciate it. Our 
next witness is John Lyon. Mr. Lyon.

     STATEMENT OF JOHN LYON, OWNER, J&J SPORT, SYCAMORE, IL

    Mr. Lyon. Thank you, Mr. Chairman and Committee members, 
for the opportunity to address you today. I am John Lyon. I am 
a small business owner from Sycamore, Illinois, a rural 
community in northern Illinois. We own and operate the oldest 
Yamaha dealership in the State of Illinois and we are one of 
the original Yamaha motorized dealers in the Nation.
    We are, similar to many other small businesses involved in 
the snowmobile industry. What we are really proudest of 
ourselves is that our dealership is rated number one in the 
State of Illinois in customer satisfaction and we have 
maintained that rating for a number of years. We have a pretty 
good feel for what our customers want and what the snowmobilers 
desire.
    I am also involved to a greater degree in snowmobiling, in 
that I am a volunteer for the Illinois Association of 
Snowmobile Clubs. I have been on that association's board for 8 
years and for the past 3 years I have been its president. I am 
very concerned about what happens to our friends who enjoy the 
winter sports and enjoy being out there on their snowmobiles.
    In Illinois, we have 58,000 registered snowmobiles. We are 
not the largest in those numbers, but we are the fifth largest 
snow state in the country.
    Snowmobilers very much enjoy the mobility of being out in 
the wilderness, and we are truly environmentalists. We are very 
concerned about where we use our snowmobiles and we are out 
there to see the winter beauty.
    Because of the need to find a place to operate a 
snowmobile, we are a very mobile group. It is not a problem for 
us to travel many hours to find an enjoyable place to ride. So 
even though we do not have a national park in Illinois where we 
can snowmobile, it is not a problem for us to travel 6, 8 hours 
or 25 hours to the Yellowstone area to enjoy the winter 
splendor.
    Of concern to us is a statement that was made by Mr. Barry. 
He said that the snowmobile industry had many years to clean up 
their act and that they hadn't. This really is not the case. We 
are very concerned about what goes on and the industry 
actually, since 1994, has reduced emissions of snowmobiles by 
50 percent.
    It is probably one of the few industries that actually went 
to EPA and said ``regulate us'' and EPA said we do not have any 
way to do that. And the industry went out on their own and 
helped have testing developed so the EPA could regulate the 
industry and give us some standards so that we know where we 
are going.
    Mr. Barry's statements will most assuredly have a negative 
effect on the small snowmobile business. The small snowmobile 
business in the United States accounts for about 2,000 
dealerships. These dealerships employ roughly 20,000 people. 
And on the tourism and outside part of it, there are 65,000 
additional jobs. In our personal business, one-third of our 
revenue is derived from snowmobile sales, service, and related 
accessories, which would include things like trailers to make 
our snowmobile experience mobile.
    In our four-state area, snowmobiling is a $3 billion 
business. It is roughly half of the U.S. effect of snowmobile 
tourism and a third of the international business.
    This is a family sport. This is something for everyone in a 
family group to enjoy. The average age of the snowmobile owner 
is 41 years, so they are fairly stable people. The annual 
family income of that group is $60,000. Snowmobiles are known 
as money spenders in the tourism business. Unlike other groups, 
snowmobilers are not afraid to spend some money when they go to 
use their snowmobile.
    In the United States last year, there were 137,000 
snowmobiles sold, new snowmobiles. That is 65 percent of the 
world market. This country is the snowmobile capital of the 
world. In the United States, there are roughly 2.3 million 
snowmobiles registered at this time.
    Chairman Manzullo. John, you have got 20 seconds to wind 
up.
    Mr. Lyon. 80 percent of snowmobile operations is on groomed 
trails or roads. And we as a group believe in good valid 
science, we want to be respected users of the land, and we are 
here to do anything we can to help you make a decision on the 
proper use. Thank you.
    [Mr. Lyon's statement may be found in appendix.]
    Chairman Manzullo. Thank you very much. Congresswoman 
McCarthy has another hearing. Why don't you go first.
    Mrs. McCarthy. Thank you, Mr. Chairman. Mr. Collins, I just 
want to follow up on some of the things that you had said. 
Obviously, after hearing all the testimony, your job certainly 
is to protect our land, and I agree with you on that. But being 
that, you know, this regulation has come down without really 
any warning to anybody, and did I misunderstand when you said 
that this was only going to affect Yellowstone, or is this 
going to affect all of our national parks?
    Mr. Collins. There are two processes occurring roughly 
simultaneously. Yellowstone and Grand Teton are going through a 
winter use plan development, which Senator Thomas referred to. 
Separate from that, the Park Service is in the process of 
putting together a proposed rule that would deal with the other 
25 some national parks that authorize snowmobile use.
    Mrs. McCarthy. May I follow up on that? Being that the 
national parks are for everyone, and they are, when you were 
coming up with deciding to come through with these regulations 
did you not think that it might be a good idea to have the 
input of those that would be affected by it mostly, especially 
those that are snowmobilers and those that are in the business? 
And I know it is not up to the national parks to be concerned 
about the businesses in the area, but one thing I have found 
out about being down here in Washington, lack of communication 
and education of people is sorely lacking.
    Could this not have been avoided by meeting with everyone, 
whether here on the Congressional side or on the Senate side, 
to work it out before it came down to this, where everybody is 
so contentious about it because you are going to affect 
livelihoods?
    Mr. Collins. I need to make clear that I do not represent 
the National Park Service. We are a private nonprofit advocacy 
group.
    Mrs. McCarthy. I apologize.
    Mr. Collins. That is okay. I will say that the Park Service 
at Yellowstone went through an exhaustive public comment--
public hearing comment process. They got about 46,000 comments 
on the Yellowstone plan. For the other issue here for the other 
national parks, that the Park Service surrender a legal 
responsibility to follow the directives that are in a couple of 
executive orders, the Code of Federal Regulation, the organic 
act that controls the national parks, and that is what they are 
trying to do is respond to those legal requirements, and as I 
said, they have not made a final decision they are coming out 
with a proposed rule.
    Essentially what they have said is we have looked at 
regulations that govern snowmobiles. We are not in compliance. 
We need to figure out a way to get into this compliance.
    Mrs. McCarthy. Going back to Yellowstone and the area that 
you are definitely going to be closing off, do you have any 
estimate on how many snowmobiles go into that area?
    Mr. Collins. On an average winter roughly 65 to 70,000 
something like that. Just in the park.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    Chairman Manzullo. Thank you, Mrs. McCarthy. Mr. Thune, do 
you have any questions you wanted to ask?
    Mr. Thune. Mr. Chairman, I would just again comment on--I 
think this sort of ties into another issue that is impacting my 
State right now and another issue which Dr. Abbott is 
acquainted with because his original home town is Yankton, and 
that is the personal watercraft ban. And I think what Senator 
Thomas was alluding to earlier is this precedent that 
establishes in terms of the process by which these decisions 
are being made and these regulations are being proposed. And I 
guess that to me is one issue. The policy is another issue.
    But frankly, I have been very concerned about the process 
that has been employed. And I would suggest just to the panel, 
and perhaps ask a question about how might we better 
incorporate the suggestions and input of you all in doing this 
so that the people who are impacted by the decisions that are 
being made actually have an opportunity to talk about what 
impact that will have?
    There is going to be a comment period, obviously, if and 
when they propose this regulation. But would you be in favor of 
some public hearings? I mean, how can the stakeholders, the 
people who are impacted, the small businesses that are out 
there that we are concerned about, actually have a voice in 
what is being done here? Anybody care to answer that?
    Mr. Lyon. I would believe that what we are doing here today 
is a beginning of that and that most of us small business 
owners have never been involved in this sort of thing. My 
involvement today comes from the fact that we came to 
Washington in the fall and learned a lot about what goes on and 
now that something is really impacting us, it is time for us as 
small businesses to make a decision to get involved in our 
government if we really knew how it worked.
    And so I would say that from our side, we need to better 
educate our fellow businesspeople as to what is going on and 
try to get input to you and let them realize that you want our 
input. And I don't know how to get that really initiated so 
maybe if we had some in put from you, if we had public 
hearings, we could get more people involved. They have stayed 
away from it because it has not directly affected them. And now 
there is a direct effect coming that we are very concerned will 
be a trickle down into the other industries. In our business we 
do not just sell snowmobiles, we sell ATVs and motorcycles and 
all the related products, and the concern is if this action can 
happen at this time it can happen to everybody else, including 
people on snowshoes.
    So I really do not have an answer to your question, other 
than we want to be involved, we need to be educated on how to 
be very involved.
    Mr. Thune. Has there been any, that you are aware of, 
interest on behalf of the Small Business Administration in 
terms of examining this? Has it sort of been--has the SBA--and 
I don't know the answer to that, maybe the chairman does, but 
are any of you aware--because that is the job that they are 
responsible for as an agency of the government, is to determine 
what impact some of these things will have on small businesses?
    Mr. Lyon. I am not aware.
    Mr. Collins. Congressman, may I address your first 
question? I would just like to say that we are fully supportive 
of the public comment process because it offers us an 
opportunity as well to get our views in, and I think that 
process will be extraordinarily extensive. If the demand merits 
it, I suspect there will be public hearings. It is an 
opportunity really for everybody to weigh in, snowshoers, 
environmentalists, manufacturers, snowmobilers. It is an even 
playing field for everyone and we are all going to take 
advantage of it.
    Mr. Seely. May I respond to that as well? We have offered 
on numerous occasions to meet with the local Park Service and 
sit down and get things out on the table and work out a 
solution to the problem. We have been ignored. It seems to me 
that part of the problem is they make a decision, this is where 
we are going, but they haven't figured out how to get there. 
They are using Alternative G now, but it does not work. They 
haven't asked anybody yet why or how the snowcoach alternative 
is going to work.
    And there needs to be that process of on the ground people 
working with them, with firsthand knowledge, to help them 
arrive at a solution that works instead of picking one and then 
hoping that it will work. We have had no response, but I might 
add within the last couple of weeks, we have had a listening 
ear and we hope that will continue.
    Mr. Thune. I would, Mr. Chairman--I think that is a great 
suggestion, probably too intuitively obvious but we ought to 
have the stakeholders sit down with the agencies that are 
supposedly--and see, obviously, there is a set of objectives 
here that they are trying to reach but there are also a lot of 
consequences that I don't think they have anticipated, and I 
think the people who are impacted by those consequences need to 
be at the table. And as far as the public process is concerned, 
I think that is why the hearing that you are having today is 
important because it does give us another forum in which to 
have some of these issues raised and questions asked, and I 
would hope that that would continue.
    And I think as the representatives of the people, and the 
Congress, that we ought to have a role in trying to resolve 
this issue in a way that minimizes the disruption and negative 
economic impact that could be felt by a lot of the people at 
the table this morning. And I would say, too, as someone who 
comes from South Dakota, that tourism is critical in our state 
and at this time of the year, summer tourism, and as President 
Abbott noted in his testimony, that is very important. But we 
also have significant winter month tourism into the Black Hills 
of South Dakota and beyond, heading out into some of your 
states and we all benefit from the economic activity that that 
generates.
    So this is a serious economic issue in terms of the way 
that it impacts. It is also, I think, an issue of public access 
to public grounds, properties, and for recreational use. And 
that is the broader issue which we are getting into on a lot of 
other levels right now with personal watercraft, but I 
appreciate your testimony. It is certainly enlightening in 
bringing us up to speed what some of those impacts are. And I 
would also suggest that if you have data--some of you indicated 
in your testimony that the facts that are being put out there 
are not representative of the actual reality--I think we need 
to get what that data is. We want to obviously ensure that the 
right information and the decisions are made based upon good 
information, so to the degree that you could furnish that I 
would welcome that, and I yield back.
    Chairman Manzullo. Congressman Thune, I appreciate that. I 
would stress that the reason that we are having this hearing is 
that the people impacted have been denied any opportunity to 
get their voice involved in the governmental process. When Mr. 
Lyon was in our office, last October, we chatted generally 
about different things. Then when this notice came down in 
April, our office contacted you and said there is something 
significant going on that could destroy the industry and your 
industry had been blind-sided by it.
    So that is why we are having you here. It is a shame. It is 
a tragedy that we have to have a congressional hearing in order 
to hold fairness going into a decision that tremendously 
impacts your livelihood.
    Congressman Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I agree that the 
presenters have given good input, certainly very informative to 
me. I come from an area of the country that does not have snow 
and, therefore, I did not know many of the things that I heard 
this morning. I have a lot of respect for entrepreneurs and 
those risk takers that set up businesses and make their 
livelihood the way you do.
    I have a couple of questions, I will address them to Clyde 
Seely. I know that from listening to and reading some of the 
material that was given to us for this hearing that there are 
people who claim that wildlife is heavily impacted. In the area 
that I come from, tourism is very important. Hunting is very 
important. And so I took interest in some of the material that 
was given to us to read. Many small businesses in the West and 
Northwest, especially in Montana, gain huge revenues from 
hunting. And during that season, if there are constant groups 
of recreational snowmobilers, it will create difficulties for 
those hunters.
    My question to you is are there any public lands in which 
the local or State governments restrict snowmobiling use on 
public lands during hunting season because of the adverse 
impact on hunting game?
    Mr. Seely. That does not happen very often there. Of 
course, we are talking about Yellowstone mainly here, and of 
course there is no hunting in Yellowstone. In Forest 
Servicesurrounding Yellowstone, it is not a very sportsman like thing 
to do, to go hunting on snowmobiles. I am not aware that that happens a 
lot. I am not sure what kind of an impact it would have--if it does one 
way or another.
    Mr. Hinojosa. Another question also for you, Clyde. Do you 
believe that an economic impact analysis should also include 
the economic costs of continuing the snowmobiling in national 
parks, including the cost of pollution, the cost to wildlife, 
and the cost of the degradation of the national park itself and 
how that will impact future attraction?
    Mr. Seely. Yes, I always believe in good studies and good 
science. But the problem is in the past some of it has not been 
good science and most, underline ``most,'' of the information 
that is out there today is antiquated. It is not current. It is 
not accurate.
    But I believe there is a real need to get accurate, current 
information. That is the answer to the first part.
    Mr. Hinojosa. Well, I understand. We both agree then that 
we do need that economic impact analysis to be able to make 
good decisions. Mr. Chairman, I cannot help but agree with you 
that we need to have public hearings for stakeholders and that 
we hear both sides, that we try to find consensus where this 
industry can survive but that we also respect those visitors to 
the public lands. I think that we also have a responsibility to 
listen to their concerns and to make sure that they are also 
heard and that their wishes are also respected.
    Thank you, Mr. Chairman.
    Chairman Manzullo. That is a very interesting set of 
questions. Do you have ATVs that go across the lands there in 
your congressional district, Congressman? All-terrain vehicles 
or motor bikes in your part of the country?
    Mr. Hinojosa. Well, hunting in south Texas is done slightly 
differently. We do a lot of walking for the bird hunting, and 
we have to do a totally different type when we are hunting for 
deer. So, you know, the vehicles that we get to, our pickups, 
jeeps, that is the answer to your question.
    Chairman Manzullo. You have a congressional district that 
still has a tremendous amount of unemployment. Is that correct?
    Mr. Hinojosa. Yes, we are celebrating the lowest 
unemployment rate in 30 years. This last month it was 12.5.
    Chairman Manzullo. We really appreciate your insights. 
Congressman Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief. I 
apologize for not being here to hear the testimony but I will 
review the testimony. We unfortunately around here have three 
hearings going on at the same time and you obviously can't be 
in more than one place, so you get parts of each one of them.
    My principal comment would be--and I do not necessarily 
have any questions, but this is not particularly unusual--what 
has happened over time is Congress has turned over its power to 
a bunch of Federal agencies and they have run amuck in all 
kinds of areas. And oftentimes even though there is a public 
comment period because by law they are supposed to hear from 
the public, they pretty much have in mind what they want to do, 
and to comply with the law they will hold a hearing here and 
there and listen to people but they really know what they want 
to do.
    And I think that is not the way that our Founding Fathers 
ever intended this country to be run. I think they intended for 
the public to elect people to make the decisions on their 
behalf. And if the people did not like the decisions that their 
elected officials were making they would get rid of them. But 
in essence what we have done over time is we have given up that 
right to a bureaucracy which is extremely powerful and over 
time perhaps we can make some changes in that area, but it has 
been very slow.
    I certainly do sympathize with many particularly small 
business owners that have been very adversely impacted over 
time with a whole range of government agencies, not just the 
Park Service. You have the EPA and OSHA and many others who 
make decisions and really oftentimes just do not look at the 
impacts that it will have on people's jobs and people's lives. 
Not to say that those agencies do not do an awful lot of good. 
I have kids. I want them to breathe clean air and drink clean 
water as well. So there are environmental things that we need 
to take into consideration. But I sympathize to a considerable 
degree with the testimony that I understand that you all made 
today.
    I want to thank the chairman for holding this hearing, and 
I would like to see more of these. I think it is very 
important. Thank you.
    Chairman Manzullo. We should have a hearing out in 
Yellowstone in the height of the snowmobile season.
    I have several questions here, but I would like to do 
something a little bit unusual. Mr. Collins, I do not want to 
put you on the spot. Unfortunately, in our country there is 
this tremendous divide between the people that use the word 
``environmentalists'' and people that are involved in 
businesses. I have a 14-year-old with asthma. My wife is a 
microbiologist. We raise cattle, and we have obviously a 
tremendous interest in keeping the air clean, keeping the creek 
clean, and making sure that there is a healthy environmental 
balance.
    And unfortunately, people cross swords and everybody gets 
hurt on both sides. What I would like to do is really open up 
the panel here to see if anybody has any questions that they 
want to ask anybody else on the panel. Any comment on what Mr. 
Collins said or, Mr. Collins, if you have any comment on some 
of the other testimony that was given.
    Mr. Collins. I guess I do. I have been waiting for someone 
to explain to me the clear link between the health of a $9 
billion industry and the closing of really a few national parks 
to snowmobiles. I guess I should mention that when you look at 
the number of use of snowmobiles in national parks, after 
Yellowstone, Grand Tetons, Voyageurs, Pictured Rocks, it drops 
off to an almost insignificant level.
    So--and I understand, I am not saying that there are not 
individual businesses that could be severely impacted but I 
have heard a lot of statements about the size, importance, 
significance of this industry as a whole.
    Chairman Manzullo. Mr. Stein, all 10 miles would be closed?
    Mr. Stein. That is correct, 10 miles would be closed in 
Pictured Rocks.
    Chairman Manzullo. Is that 100 percent of the trails in 
Pictured Rocks?
    Mr. Stein. It is 100 percent of the trails in the park.
    Mr. Collins. I would respectfully disagree. It is my 
understanding that there are a number of roads in the park over 
which the Park Service does not have jurisdiction and so that 
even if they wanted to, they would not be able to close that to 
snowmobiling.
    Mr. Stein. It is a county road that would remain open to 
snowmobiling, but it is on a park boundary, I believe. It is 
not within the park. Roads within the park would be closed.
    Chairman Manzullo. What is the significance of that? This 
is a good exchange. It is too bad that it did not take place 
before the press release was issued. But go ahead.
    Mr. Stein. It is a link in our trail, as you mentioned 
before. It is to Miners Castle trail. The entire trail length 
is 18 miles long.
    Chairman Manzullo. Did you have a picture of his park or 
was that just Yellowstone?
    Mr. Collins. No, that was just Yellowstone. Sorry.
    Chairman Manzullo. Okay. Go ahead, please.
    Mr. Stein. And this would close that trail, an 18-mile 
trail link, which also 8 miles down that trail links up to 
another trail. But it is called the Miners Castle trail because 
that is the most important feature on this trail. That is why 
people take this. After they do that, then they go ahead and do 
other things. But to close that is just cutting off your main 
attraction in the area, your flagship. Just the publicity 
alone----
    Chairman Manzullo. So the Miners Castle Road and the 
snowmobile trail that goes by that would be closed.
    Mr. Stein. The trail actually runs right up to it. It does 
not go by it. It goes up to the Miners Castle, it turns around 
in the parking lot that is used to park vehicles all summer, 
buses and whatever, and then it returns from that point. The 
trail we use, again, it is used by motor vehicles, buses, 
trucks, diesel vehicles all summer long, and that is the trail 
we use for the few snow covered months of the year.
    Chairman Manzullo. Clyde, you have a comment?
    Mr. Seely. I would like to take this opportunity to respond 
again, to reopen the issue that I brought up about Mr. Collins' 
statement. He refers in his testimony to a $5 million impact on 
West Yellowstone from Mr. Duffield's study, and it is my 
understanding from the State of Wyoming that they receive--they 
read that study. They report a $13 million impact on the five 
counties, 70 percent of that impact comes through or is 
apparent in West Yellowstone, which equates to about $10 
million a year and not 5, and that is a significant impact on a 
little town of 1,000 people.
    The State of Wyoming, using Duffield's own numbers came up 
with a $50 million impact. And using their own data, Wyoming's 
own data, they come up with the real impact in the five-county 
area to be more like $130 to $150 million. And so it is a 
significant difference from what has been whitewashed before.
    I would like to also call attention to the survey or this 
so-called petition that went around. I have read this thing. I 
am a supporter of a healthy economy and healthy park, and I 
have hardly any problem signing this. There is one little 
statement there. This petition does not say anything about 
banning snowmobiles. These people are not in favor of banning 
snowmobiles. Some of my employees that have signed this. I 
wouldn't mind signing it too, with the exception of one little 
statement.
    He also says that 150 businesses and residents have signed 
this petition. 150 businesses? I counted quickly seven 
businesses. I count some that have signed twice. It is 
ludicrous.
    Chairman Manzullo. The chairman is from Chicago. You can 
sign as many times as you want. [Laughter.]
    Mr. Seely. And then there are some that I can't read. This 
is a poor representation of the community. I was involved with 
a survey conducted by the Chamber of Commerce and 90 percent of 
the respondents of these surveys on two different occasions are 
in favor of keeping the snowmobiles in the park, and to 
misconstrue this I think is an insult of our intelligence.
    Chairman Manzullo. Let me throw something in here. Senator 
Thomas said this morning that there has really been a lack of 
enforcement of the regulations within the park with regard to 
the snowmobiles? Did he say that?
    Mr. Seely. The Park Service has admitted that. Don Barry 
has admitted that. Mike Finley has admitted that. They have 
ignored any regulations that they say they have been mandated 
to all these years.
    Chairman Manzullo. So this must be the bane of the problem. 
And yet there are some parks such as in Mr. Stein's area--is it 
Pictured Rocks?
    Mr. Stein. Pictured Rocks.
    Chairman Manzullo. Was that 10 miles agreed upon by the 
people there or was that an order or edict? Do you know how 
that came up?
    Mr. Stein. As far as I know, that just came up on this 
closure order last November or last October. I do the grooming 
also for the Park Service. Mr. Gerou grooms through a contract 
from the Munising Visitors Bureau and I am president of the 
Munising Visitors Bureau. Last October when I got my permit to 
groom the trail into the national park they had said it had 
been going so good with so few problems that I would not have 
to renew it yearly anymore. It was the first time that they 
gave me a 2-year permit to groom the trails within the national 
park. And then this April we find out that the trails were 
closed.
    Last October I thought things were going fine. We had no 
problem. Nobody ever asked me about it. I have no idea how it 
came about other than what I read in the paper. I have still 
not been told anything as far as my grooming, except what I see 
as far as the closure goes. I have never been notified not to 
groom the trail or that we did anything wrong.
    Chairman Manzullo. Mr. Collins, do you have a copy of 
Duffield's study? Is that readily available? Clyde, have you 
read it?
    Mr. Seely. I do not have it. I just referred to it through 
his statement.
    Mr. Collins. I do not have a copy on me. Those numbers are 
included in the draft EIS and it is supposed to go to final 
fairly soon; is that correct?
    Mr. Seely. Yes.
    Mr. Collins. Yeah, they are putting the final touches on 
the final EIS as we speak.
    Chairman Manzullo. Was he hired by the National Park 
Service?
    Mr. Collins. He was a consultant hired by the National Park 
Service.
    Chairman Manzullo. For this particular study.
    Mr. Collins. Yes.
    Chairman Manzullo. Do you know if there were any other 
people hired?
    Mr. Collins. I don't know.
    Chairman Manzullo. Dr. Abbott, you would have been a good 
person, with your background, that could have contributed a lot 
to this study of impact on economic impact of a snowmobile ban. 
Where is John Duffield from?
    Mr. Seely. Missoula, Montana.
    Chairman Manzullo. It is Missoula, not Manzullo. Does 
anybody else have any questions of each other on the panel? Dr. 
Abbott?
    Dr. Abbott. I guess I would just like to make a couple of 
comments. First of all, as someone who does not have a direct 
pecuniary interest, I am never sure why a proposed ban has to 
be all or nothing. It does not make any sense to me. In our 
little area, 30 miles from where I live there is a state park 
and a national park that bound each other. And they simply 
agreed to have--actually it is watercraft, but all the 
watercraft you want above the lake and quarterhorse only below 
the lake on the river. Those kinds of compromises make a great 
deal of sense to me.
    The other thing I would like to comment on is the economic 
impact. It seems to be the impression that the only economic 
impact that ought to be considered by conservationists is the 
entire degradation of the industry. But in effect really small 
towns in thinly populated states, often a 15 or 20 percent drop 
in business makes a huge difference to the cafes, hotels, 
plants, et cetera. We are not talking about whether Mr. X goes 
out of business necessarily. We are talking about his ability 
to stay open or to close is often 15 or 20 percent margin, not 
50 or 75 percent. I think that is an important thing to 
consider.
    And I also think it is important to consider that not 
everybody involved in this issue is a direct stakeholder. There 
are also other kinds of people who are involved on the 
periphery who do not snowmobile at all, as I do not, nor do 
they hunt or anything else, but still consider that they have 
an interest in what people are allowed to do in those parks and 
I think that has been ignored.
    Mr. Collins. May I respond to that?
    Chairman Manzullo. Of course.
    Mr. Collins. I guess I would respond to the last piece 
about how people without a direct interest also have an 
interest. And I would argue that one of those categories of 
people are visitors, for example, to Yellowstone National Park 
who go to Old Faithful, which is one of the most popular 
destinations, and in the winter are disturbed by the sound of 
snowmobile noise. Now, some people are not and some people are. 
But clearly there are a lot of visitors who find the noise of 
snowmobiles at Yellowstone in the winter to be an objectionable 
part of their experience at the park.
    I am not saying that those people have precedence, but 
their opinions certainly need to be weighed. So there are a lot 
of people out there who are stakeholders.
    Chairman Manzullo. I haven't been to the geyser, but it is 
my understanding that particular area is loaded with gas 
stations, roads, motels and hotels. It is an area that, like it 
or not, has become commercialized because it was the first 
thing to see out there. But would you do away with the cars, 
the motels, the noise, and anything that interferes with the 
sound of the geyser?
    Mr. Collins. No, I agree that it is currently a built up 
area. I would argue, however, that the Park Service is right to 
take whatever steps it reasonably can to reduce the impact, 
reduce the noise, reduce the disruption.
    Chairman Manzullo. It was my understanding that the 
complaint about the noise, and I may be wrong, was just that 
point in the morning when the snowmobilers got together and 
then left and dispersed to go on the various trials. Is that a 
correct statement that I just made?
    Mr. Collins. It may be correct for some people. For other 
people there really is constant noise at Old Faithful all day 
from a variety of sources.
    Chairman Manzullo. You have been out there.
    Mr. Collins. I have been to Old Faithful. Not in the 
winter, but there is noise from a variety of sources. And it is 
reasonable for the Park Service to look at these noise sources 
and say which can we control and how are we going to address 
this.
    Chairman Manzullo. We have about 5 minutes. Very quickly 
now, please discuss the issue about pollution, noise, 
antiquated engines of the snowmobiles. I think you had 
mentioned that in your written statement.
    Mr. Seely. May I respond to that?
    Chairman Manzullo. Yes, quickly.
    Mr. Seely. The community of West Yellowstone has been very 
proactive in handling this problem. We began using ethanol in 
all of our rental snowmobiles 2 years ago, which cuts the 
pollution down by 35 percent. We began as a community, it was 
our direction, our initiative, to begin preselling park passes 
so that the machine would not have to stop and wait in front of 
the ranger's station. So now they use express lanes and go 
right on through.
    Arctic Cat, who supplies our snowmobiles has come out with 
a four-stroke snowmobile. They will provide 50 of those to us 
next winter, and the following winter as many as we want, as 
many as the town wants that no longer burns oil. It is a four-
stroke snowmobile. It burns only gasoline. Their economy is 
increased three times. The noise--Don Barry and I had our own 
little experiment. The noise decreases by three times with the 
four-stroke versus the two-stroke. In a year or two you will 
see technology of the snowmobile manufacturers changed 
drastically and they will come in compliance with the 
constraints of the Park Service.
    Chairman Manzullo. John, do you have a statement?
    Mr. Lyon. I just had one quick statement. In Illinois there 
are 2,500 miles of trails and 2,250 miles are on private lands. 
We are responsible users or those landowners wouldn't let us be 
there if we did not take care of their property.
    Chairman Manzullo. We have to wind this up. I want to thank 
all of you. This has been a super hearing. Mr. Collins, I 
really appreciate your minority status here, but this did not 
turn out to be anything other than a real meeting of people 
with genuine interests. I think we have all learned a lot of 
things here. We have learned about links of the National Park 
System with the state parks and the emphasis on them. We have 
learned about tremendous new technologies that cut down on the 
noise, and dramatically decreases the pollution levels.
    I would hope that organizations such as yours, Mr. Collins, 
perhaps might be open to further restrictions, which the 
industry has been asking for itself, rather than an outright 
ban on snowmobiles. I would suggest that all of us keep an open 
mind and perhaps somewhere down the line this thing could be 
worked out to the benefit of the environment and to the people 
who live near the parks.
    Again, thank you very much for coming. I can't tell you how 
much I appreciate it. The subcommittee is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T7683A.001
    
    [GRAPHIC] [TIFF OMITTED] T7683A.124
    
    [GRAPHIC] [TIFF OMITTED] T7683A.002
    
    [GRAPHIC] [TIFF OMITTED] T7683A.003
    
    [GRAPHIC] [TIFF OMITTED] T7683A.047
    
    [GRAPHIC] [TIFF OMITTED] T7683A.048
    
    [GRAPHIC] [TIFF OMITTED] T7683A.004
    
    [GRAPHIC] [TIFF OMITTED] T7683A.005
    
    [GRAPHIC] [TIFF OMITTED] T7683A.006
    
    [GRAPHIC] [TIFF OMITTED] T7683A.007
    
    [GRAPHIC] [TIFF OMITTED] T7683A.008
    
    [GRAPHIC] [TIFF OMITTED] T7683A.009
    
    [GRAPHIC] [TIFF OMITTED] T7683A.010
    
    [GRAPHIC] [TIFF OMITTED] T7683A.011
    
    [GRAPHIC] [TIFF OMITTED] T7683A.012
    
    [GRAPHIC] [TIFF OMITTED] T7683A.013
    
    [GRAPHIC] [TIFF OMITTED] T7683A.014
    
    [GRAPHIC] [TIFF OMITTED] T7683A.015
    
    [GRAPHIC] [TIFF OMITTED] T7683A.016
    
    [GRAPHIC] [TIFF OMITTED] T7683A.017
    
    [GRAPHIC] [TIFF OMITTED] T7683A.018
    
    [GRAPHIC] [TIFF OMITTED] T7683A.020
    
    [GRAPHIC] [TIFF OMITTED] T7683A.021
    
    [GRAPHIC] [TIFF OMITTED] T7683A.022
    
    [GRAPHIC] [TIFF OMITTED] T7683A.025
    
    [GRAPHIC] [TIFF OMITTED] T7683A.026
    
    [GRAPHIC] [TIFF OMITTED] T7683A.027
    
    [GRAPHIC] [TIFF OMITTED] T7683A.028
    
    [GRAPHIC] [TIFF OMITTED] T7683A.029
    
    [GRAPHIC] [TIFF OMITTED] T7683A.030
    
    [GRAPHIC] [TIFF OMITTED] T7683A.031
    
    [GRAPHIC] [TIFF OMITTED] T7683A.032
    
    [GRAPHIC] [TIFF OMITTED] T7683A.033
    
    [GRAPHIC] [TIFF OMITTED] T7683A.034
    
    [GRAPHIC] [TIFF OMITTED] T7683A.035
    
    [GRAPHIC] [TIFF OMITTED] T7683A.036
    
    [GRAPHIC] [TIFF OMITTED] T7683A.037
    
    [GRAPHIC] [TIFF OMITTED] T7683A.038
    
    [GRAPHIC] [TIFF OMITTED] T7683A.039
    
    [GRAPHIC] [TIFF OMITTED] T7683A.040
    
    [GRAPHIC] [TIFF OMITTED] T7683A.041
    
    [GRAPHIC] [TIFF OMITTED] T7683A.042
    
    [GRAPHIC] [TIFF OMITTED] T7683A.043
    
    [GRAPHIC] [TIFF OMITTED] T7683A.044
    
    [GRAPHIC] [TIFF OMITTED] T7683A.045
    
    [GRAPHIC] [TIFF OMITTED] T7683A.046
    
    [GRAPHIC] [TIFF OMITTED] T7683A.060
    
    [GRAPHIC] [TIFF OMITTED] T7683A.061
    
    [GRAPHIC] [TIFF OMITTED] T7683A.062
    
    [GRAPHIC] [TIFF OMITTED] T7683A.063
    
    [GRAPHIC] [TIFF OMITTED] T7683A.064
    
    [GRAPHIC] [TIFF OMITTED] T7683A.065
    
    [GRAPHIC] [TIFF OMITTED] T7683A.066
    
    [GRAPHIC] [TIFF OMITTED] T7683A.067
    
    [GRAPHIC] [TIFF OMITTED] T7683A.068
    
    [GRAPHIC] [TIFF OMITTED] T7683A.069
    
    [GRAPHIC] [TIFF OMITTED] T7683A.070
    
    [GRAPHIC] [TIFF OMITTED] T7683A.071
    
    [GRAPHIC] [TIFF OMITTED] T7683A.072
    
    [GRAPHIC] [TIFF OMITTED] T7683A.073
    
    [GRAPHIC] [TIFF OMITTED] T7683A.074
    
    [GRAPHIC] [TIFF OMITTED] T7683A.075
    
    [GRAPHIC] [TIFF OMITTED] T7683A.076
    
    [GRAPHIC] [TIFF OMITTED] T7683A.077
    
    [GRAPHIC] [TIFF OMITTED] T7683A.078
    
    [GRAPHIC] [TIFF OMITTED] T7683A.079
    
    [GRAPHIC] [TIFF OMITTED] T7683A.080
    
    [GRAPHIC] [TIFF OMITTED] T7683A.081
    
    [GRAPHIC] [TIFF OMITTED] T7683A.082
    
    [GRAPHIC] [TIFF OMITTED] T7683A.083
    
    [GRAPHIC] [TIFF OMITTED] T7683A.049
    
    [GRAPHIC] [TIFF OMITTED] T7683A.050
    
    [GRAPHIC] [TIFF OMITTED] T7683A.051
    
    [GRAPHIC] [TIFF OMITTED] T7683A.052
    
    [GRAPHIC] [TIFF OMITTED] T7683A.053
    
    [GRAPHIC] [TIFF OMITTED] T7683A.054
    
    [GRAPHIC] [TIFF OMITTED] T7683A.055
    
    [GRAPHIC] [TIFF OMITTED] T7683A.056
    
    [GRAPHIC] [TIFF OMITTED] T7683A.057
    
    [GRAPHIC] [TIFF OMITTED] T7683A.058
    
    [GRAPHIC] [TIFF OMITTED] T7683A.059
    
    [GRAPHIC] [TIFF OMITTED] T7683A.131
    
    [GRAPHIC] [TIFF OMITTED] T7683A.132
    
    [GRAPHIC] [TIFF OMITTED] T7683A.133
    
    [GRAPHIC] [TIFF OMITTED] T7683A.134
    
    [GRAPHIC] [TIFF OMITTED] T7683A.135
    
    [GRAPHIC] [TIFF OMITTED] T7683A.084
    
    [GRAPHIC] [TIFF OMITTED] T7683A.085
    
    [GRAPHIC] [TIFF OMITTED] T7683A.086
    
    [GRAPHIC] [TIFF OMITTED] T7683A.087
    
    [GRAPHIC] [TIFF OMITTED] T7683A.088
    
    [GRAPHIC] [TIFF OMITTED] T7683A.089
    
    [GRAPHIC] [TIFF OMITTED] T7683A.090
    
    [GRAPHIC] [TIFF OMITTED] T7683A.091
    
    [GRAPHIC] [TIFF OMITTED] T7683A.092
    
    [GRAPHIC] [TIFF OMITTED] T7683A.093
    
    [GRAPHIC] [TIFF OMITTED] T7683A.094
    
    [GRAPHIC] [TIFF OMITTED] T7683A.095
    
    [GRAPHIC] [TIFF OMITTED] T7683A.096
    
    [GRAPHIC] [TIFF OMITTED] T7683A.097
    
    [GRAPHIC] [TIFF OMITTED] T7683A.098
    
    [GRAPHIC] [TIFF OMITTED] T7683A.099
    
    [GRAPHIC] [TIFF OMITTED] T7683A.100
    
    [GRAPHIC] [TIFF OMITTED] T7683A.101
    
    [GRAPHIC] [TIFF OMITTED] T7683A.102
    
    [GRAPHIC] [TIFF OMITTED] T7683A.103
    
    [GRAPHIC] [TIFF OMITTED] T7683A.104
    
    [GRAPHIC] [TIFF OMITTED] T7683A.105
    
    [GRAPHIC] [TIFF OMITTED] T7683A.106
    
    [GRAPHIC] [TIFF OMITTED] T7683A.107
    
    [GRAPHIC] [TIFF OMITTED] T7683A.108
    
    [GRAPHIC] [TIFF OMITTED] T7683A.109
    
    [GRAPHIC] [TIFF OMITTED] T7683A.110
    
    [GRAPHIC] [TIFF OMITTED] T7683A.111
    
    [GRAPHIC] [TIFF OMITTED] T7683A.112
    
    [GRAPHIC] [TIFF OMITTED] T7683A.113
    
    [GRAPHIC] [TIFF OMITTED] T7683A.114
    
    [GRAPHIC] [TIFF OMITTED] T7683A.115
    
    [GRAPHIC] [TIFF OMITTED] T7683A.116
    
    [GRAPHIC] [TIFF OMITTED] T7683A.117
    
    [GRAPHIC] [TIFF OMITTED] T7683A.118
    
    [GRAPHIC] [TIFF OMITTED] T7683A.119
    
    [GRAPHIC] [TIFF OMITTED] T7683A.120
    
    [GRAPHIC] [TIFF OMITTED] T7683A.121
    
    [GRAPHIC] [TIFF OMITTED] T7683A.122
    
    [GRAPHIC] [TIFF OMITTED] T7683A.123
    
    [GRAPHIC] [TIFF OMITTED] T7683A.139
    
    [GRAPHIC] [TIFF OMITTED] T7683A.140
    
    [GRAPHIC] [TIFF OMITTED] T7683A.141
    
    [GRAPHIC] [TIFF OMITTED] T7683A.142
    
    [GRAPHIC] [TIFF OMITTED] T7683A.143
    
    [GRAPHIC] [TIFF OMITTED] T7683A.144
    
    [GRAPHIC] [TIFF OMITTED] T7683A.145
    
    [GRAPHIC] [TIFF OMITTED] T7683A.146
    
    [GRAPHIC] [TIFF OMITTED] T7683A.147
    
    [GRAPHIC] [TIFF OMITTED] T7683A.148
    
    [GRAPHIC] [TIFF OMITTED] T7683A.149
    
    [GRAPHIC] [TIFF OMITTED] T7683A.150
    
    [GRAPHIC] [TIFF OMITTED] T7683A.151
    
    [GRAPHIC] [TIFF OMITTED] T7683A.152
    
    [GRAPHIC] [TIFF OMITTED] T7683A.153
    
    [GRAPHIC] [TIFF OMITTED] T7683A.154
    
    [GRAPHIC] [TIFF OMITTED] T7683A.155
    
    [GRAPHIC] [TIFF OMITTED] T7683A.156
    
    [GRAPHIC] [TIFF OMITTED] T7683A.157
    
    [GRAPHIC] [TIFF OMITTED] T7683A.158
    
    [GRAPHIC] [TIFF OMITTED] T7683A.159
    
    [GRAPHIC] [TIFF OMITTED] T7683A.160
    
    [GRAPHIC] [TIFF OMITTED] T7683A.161
    
    [GRAPHIC] [TIFF OMITTED] T7683A.162
    
    [GRAPHIC] [TIFF OMITTED] T7683A.163
    
    [GRAPHIC] [TIFF OMITTED] T7683A.164
    
    [GRAPHIC] [TIFF OMITTED] T7683A.165
    
    [GRAPHIC] [TIFF OMITTED] T7683A.166
    
    [GRAPHIC] [TIFF OMITTED] T7683A.167
    
    [GRAPHIC] [TIFF OMITTED] T7683A.168
    
    [GRAPHIC] [TIFF OMITTED] T7683A.169
    
    [GRAPHIC] [TIFF OMITTED] T7683A.170
    
    [GRAPHIC] [TIFF OMITTED] T7683A.171
    
    [GRAPHIC] [TIFF OMITTED] T7683A.172
    
    [GRAPHIC] [TIFF OMITTED] T7683A.173
    
    [GRAPHIC] [TIFF OMITTED] T7683A.174
    
    [GRAPHIC] [TIFF OMITTED] T7683A.175
    
    [GRAPHIC] [TIFF OMITTED] T7683A.176
    
    [GRAPHIC] [TIFF OMITTED] T7683A.125
    
    [GRAPHIC] [TIFF OMITTED] T7683A.126
    
    [GRAPHIC] [TIFF OMITTED] T7683A.127
    
    [GRAPHIC] [TIFF OMITTED] T7683A.128
    
    [GRAPHIC] [TIFF OMITTED] T7683A.129
    
    [GRAPHIC] [TIFF OMITTED] T7683A.130
    
    [GRAPHIC] [TIFF OMITTED] T7683A.136
    
    [GRAPHIC] [TIFF OMITTED] T7683A.137
    
    [GRAPHIC] [TIFF OMITTED] T7683A.138
    
</pre></body></html>
